No.

20- 523
IN THE

Supreme Court of the United States
Richard E. Boggs,
Petitioner,
v.

UNITED STATES OF AMERICA, INTERNAL
REVENUE SERVICE, PETER RAE (coworkers, et al...
as individuals)
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of
Appeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

Richard E. Boggs Pro Se
7001 St. Andrews Rd. #124
Columbia, South Caroline 29212
(803)462-5157

October 10, 2020

RECEIVED
OCT 19 2020

QUESTIONS PRESENTED

1) Does 26 U.S.C. §7608 (Authority of internal revenue
enforcement officers) establish the relevant requisite
authority of IRS agents and did Special Agent Peter
Rae violate the scope of that authority as alleged?

2) Did the lower court(s), the Internal Revenue Service
(IRS), and the Department of Justice (DOJ) ignore the
operation of 26 U.S.C. §7608 in order to deprive the
petitioner his Fourth and Fifth Amendment Rights as
provided by the Constitution of the United States of
America?

3) Did the United States District Court of the District of South
Carolina (USDC) and the United States Court of Appeals for
the Fourth District (USCA4) fail to provide the petitioner
review as required by 5 U.S.C. §706?

RELATED CASES

•

Boggs v. UNITED STATES, et al, No. 3:18-cv-3506, U.S.
District Court for the District of South Carolina. Judgement
entered Sept. 4, 2019. See Appendix Al - 12.

•

Boggs v. UNITED STATES, et al, No. 19-2090, U.S. Court of
Appeals for the Fourth District. Judgment entered March 4.
2020 and Petition to Rehear denied on June 9, 2020. See
Appendix A13 - 15.

•

Boggs v. UNITED STATES, Peter Rae, No. 3:19-cv-0551, U.S.
District Court for the District of South Carolina. Judgement
entered January 16, 2020. See Appendix A16 - 26.

•

Boggs v. UNITED STATES, Peter Rae, No. 20-1672, U.S.
Court of Appeals for the Fourth District. Judgement pending.
See Appendix A27 — 37.

RULE 29.6 DISCLOSURE STATEMENT

Petitioner is not a corporation.

TABLE OF CONTENTS
Questions Presented

i

Related Cases

n

Rule 29.6 Disclosure Statement

n

Table of Contents

n

Table of Authorities

v

Petition for a Writ of Certiorari

1

Opinions Below

1

Jurisdiction

1

Constitutional Amendments, Statutes, and
Regulations involved

1

Introduction

2

Statement of the Case

2

Reasons for Granting the Writ

5

Conclusion

.8

APPENDIX
Boggs v. UNITED STATES, et al, No.

3:18-cv-3506 USDC Report and Recommendation ...Al

Boggs v. UNITED STATES, et al, No. 3:18-cv-3506

in

USDC Order Adopting R&R and Granting

Defendant’s Motion to Dismiss (August 8, 2019) ...All
Boggs v. UNITED STATES, et al, No.

19-2090 USCA4 Opinion (March 4, 2020)

A13

Boggs v. UNITED STATES, et al, No.

19-2090 USCA4 Order Denying

Petition for Rehearing (June 9, 2020)

A15

Boggs v. UNITED STATES, Peter Rae, No.

3:19-cv-0551 USDC Report and

Recommendation (November 19, 2019)

A16

Boggs v. UNITED STATES, Peter Rae, No.

3:19-cv-0551 USDC Order Adopting R&R

and Granting Defendant’s Motion to Dismiss

(January 16, 2020)

A26

Boggs v. UNITED STATES, Peter Rae, No.

20-1672, USCA4 petition filed July 14, 2020.

IV

A27

Constitutional Provisions, Statutes, and

Regulations involved (pertinent text)

A38

Declaration of Special Agent Peter Rae

A44

TABLE OF AUTHORITIES
CASES

Pase(s)

Bordenkircher v. Hayes, 434 U.S. 357, 363 (1978)

4

Connally v. General Construction Co., 269 US 85,
391 (1926).

7

Connecticut National Bank v. Germain, 503 US
249, p. 253-254, 117 L.Ed 2nd 91(1992)

6

Demarest v. Manspeaker, 498 US 184, 112 L Ed
2d 608, 111 SCt. 599, (1991)

6

Helvering v. Tex-Penn Oil Co., 300 U.S. 481,
498 (1937)

4

McNary v Haitian Refugee Center, 498 US 479,
112 L Ed 2d 1005, 111 S Ct. 888, (1991)

6

U.S. v. Goodwin, 457 U.S. 368, 372 (1982)

4

U.S. v. Lanier, 520 U.S. 259 (1997)

4

U.S. V. Melton, #94-5535 (CA4 May 22, 1996
Unpublished) (USDC #CR-93-34 W.D. North
Carolina at Shelby)

4

Reiter v Sonotone Corp., 442 US 330, 337, 60 L
Ed 2d 931, 99 S Ct. 2326 (1979).

6

United States v. Sullivan, 788 F.2d 813, 815
(1st Cir. 1986)

3

Constitutional Provisions

Fourth Amendment

i, 7, A38

Fifth Amendment

i, 7, A38

Statutes
5 U.S.C. § 706

1, 5, 7, 8, A38

26 U.S.C. § 7608

passim, A40

26 U.S.C. § 7803

2, A42

Regulations

26 C.F.R. § 70.33

3, A42

IRS Publication

IRM 9.1.2.2(09-06-2013)(l)

4, A43
vi

PETITION FOR A WRIT OF CERTIORARI

Petitioner Richard E. Boggs (“Boggs”) respectfully petitions for a
writ of certiorari to review a judgment of the United States Court of
Appeals for the Fourth Circuit (“USCA4”).

OPINIONS BELOW
The opinion of the court of appeals is unpublished and appears in the
Appendix at page A12.

JURISDICTION
The judgment of the court of appeals was entered on March 4, 2020.
(Appendix at page A12). A timely petition for rehearing was filed but
denied on June 9, 2020. (Appendix at page A13). The jurisdiction of this
Court is invoked under 28 U.S.C. §1254(1).

CONSTITUTIONAL AMENDMENTS, STATUTES AND
REGULATIONS INVOLVED
Provisions of the United States Constitution involved include Amendments IV
and V.
Provisions of the U.S. Code, Title 26 involved include 5 U.S.C. § 706, 26 U.S.C.
1

§§ 7608 and 7803.
Provisions of the Code of Federal Regulations, Title 26 involved include 26
C.F.R. § 70.33.1

INTRODUCTION
Petitioner Richard Boggs (“Boggs”) petitioned the United States
District Court (“USDC”) to contest the legitimacy of issuance of summonses
regarding Subtitle A Income Taxes by Special Agent Peter Rae (“Rae”) under
the guise of a “criminal investigation”, and the authority of Rae required to
do so under 26 U.S.C. § 7608.

STATEMENT OF THE CASE
1. Factual Background and Proceedings in District Court.
On December 10, 2018 Rae issued seven administrative summonses to the
Petitioner’s past and present employers and the Petitioner’s home security provider
requiring them to produce a plethora of information regarding Petitioners
employment, compensation for services, “any and all” correspondence, etc., etc.

i

The pertinent text of these provisions is set forth verbatim in the Appendix,

beginning at A36.

2

An eighth summons was issued to the Petitioner’s spouse on February 15, 2019
to produce “any and all information used to support the preparation of tax returns for
tax years 2012 through 2017”, even though she was not the target of any
investigation. This interrogation turned ovft to be nothing less than an intentional
attempt by the respondent(s) to use scare tactics, intimidation, and harassment
against the Petitioner’s spouse according to her and her attorney who was present.
The meeting was entirely focused on the Petitioner’s spouse’s home and nothing
regarding documentation of her “tax years 2012 through 2017”.
On December 19, 2018 the Petitioner filed suit in USDC to quash the illegally
issues summonses, as well as Petitions for a Bill of Particulars, Writ of Mandamus
and damages.
On July 26, 2019 the Magistrate issues her Report and Recommendation
(“R&R”) to dismiss citing only a vague, inconclusive mention in footnote 3 of the R&R
stating IRC § 7608 “appears” to provide the requisite authority required by Rae to
issue summonses for “other than subtitle E”2.
On August 2, 2019 Petitioner filed an Opposition to the Magistrate’s R&R
citing the failure to properly sustain her vague, inconclusive “review” of IRC § 7608
as well as reiterate the fact that IRC § 7608(b) lacks an implementing regulation as
opposed to IRC § 7608(a)3.

2 See Appendix A6.
3 See 27 CFR § 70.33 (A40)

3

On August 8, 2019 the USDC issued judgement to dismiss for reasons other
than those presented for review. The lower court failed to address ANY of the
foundational issues brought before it by the Petitioner - most importantly those
relating to IRC § 7608.
On August 12, 2019 the Petitioner filed a timely Motion for Reconsideration,
which was subsequentially denied on September 4, 2019.
2. Proceedings in Appeals Court.
On October 25, 2019 Petitioner filed a timely appeal to USCA4 seeking
review of the lower court’s failure to review the issue(s) presented regarding Rae’s
authority per 26 U.S.C. § 7608 to issue summonses, carry firearms, or engage in any
way the enforcement of “other that Subtitle E”.
On December 12, 2019 the Appellee’s entered their reply brief. The brief
made a single mention of the controlling statute 26 U.S.C. § 7608 calling it
“irrelevant” and “wrong” and instead skipped over this initial authority-granting
statute4 all together and instead sought to extract authority from I.R.C. § 7602.
The Appellee sought to purport that the statute titled “Authority of internal
revenue enforcement officers” is “irrelevant” but failed to rebut Appellant’s claim to
the contrary.

4 See IRM 9.1.2.2(09-06-2013)(l) - states emphatically § 7608 “...provides the initial
authority for investigating crimes arising under the Internal Revenue laws.”

4

On March 4, 2020 the USCA4 granted the Defendant’s motion to dismiss
citing “no reversible error” despite having been alerted to the obvious authority
question and the failure of the USDC to properly address it.
On March 25, 2020 the Petitioner filed a timely Petition to Rehear which was
routinely denied on June 9, 2020.

REASONS FOR GRANTING THE WRIT
1.

Supervisory action is needed to reign in lower court’s refusal
to provide review of relevant statutes presented which
restrain the actions of federal agents/agencies and provide
protection to persons and property in tax cases.

At the heart of this case is IRC § 7608 entitled “Authority of internal revenue
enforcement officers “. The lower courts blatant refusal to enforce, or even provide a
definitive interpretation of, this statute among others which restrain the actions of
federal agents/agencies is astounding. As the record in this case shows, the lower
courts neglected their duty demanded under 5 U.S.C. § 706 to review the relevant
questions of law raised by the petitioner or make any effort to render a definitive
interpretation. The best the lower courts could muster was a single vague,
inconclusive mention in a footnote5 - “...26 U.S.C. § 7608(b)(2)(A) appears to provide

5 See USDC Magistrate’s R&R (3:18-cv-03506 (EN 36)) page 6, footnote 3 and

5

for Rae’s authority...”. This alone is grounds for reversal by the USCA4.
It is clear and unambiguous that 26 U.S.C. § 7608(b)(2)(A) restrains any IRS
agent or investigator’s authority to Subtitle E enforcement only unless they are “any
criminal investigator of the Intelligence Division of the Internal Revenue
Service...” and charged with such duty by the Secretary. According to Rae’s own
declaration6, he does not meet the explicit requirements to enforce any Subtitle other
than Subtitle E. This statute is explicit and provides no leeway to interpret the
requirement to enforce any Subtitle other than Subtitle E as does § 7608(a) and its
corresponding regulation7 - which is lacking for § 7608(b).
According to this court, the laws simply mean what the words used in them
say, and nothing more can be read into the law or assumed about it into existence.
The following U.S. Supreme Court cases below clearly reveal these irrefutable facts:
In Demarest u. Manspeaker, 498 US 184, 112 L Ed 2d 608, 111 S Ct. 599,
(1991), the court held: "In deciding a question of statutory construction, we
begin of course with the language of the statute."
In Connecticut National Bank v. Germain, 503 US 249, p. 253-254, 117
L.Ed 2nd 91(1992), the court identifies that:"... courts must

Appendix A6.
6 See USDC EN 28-2 page 1 and Appendix A42
7 See Appendix A40.

6

presume that a legislature says in a statute what it means and means in a
statute what it says there. When the words of a statute are unambiguous, then,
this first canon is also the last: “judicial inquiry is complete.
In McNary v Haitian Refugee Center, 498 US 479, 112 L Ed 2d 1005,
111 S Ct. 888, (1991), the court invokes these basic standards of statutory
construction again: "It is presumable that Congress legislates with knowledge
of our basis rules of statutory construction...".
In Reiter v Sonotone Corp., 442 US 330, 337, 60 L Ed 2d 931, 99 S Ct.
2326 (1979), the court again recognizes its duty to begin with the specific words
of the statute: "As is true in every case involving the construction of a statute,
our starting point must be the language employed by Congress."
"(A) statute which either forbids or requires the doing of an act in terms
so vague that men of common intelligence must necessarily guess at its
meaning and differ as to its application, violates the first essential of due
process of law." - Connally u. General Construction Co., 269 US 385, 391
(1926).
The IRS, DOJ, and lower courts have intentionally either ignored the plain,
unambiguous language of this restraining provision (among others), or perverted, or
attempt to guess at, it’s clear meaning in order to support an unconscionable, biased
predetermined position of authority.

2.

Supervisory action is needed to preserve due process in tax

7

cases.
By ignoring clear statutory language, the judiciary has routinely deprived this
Petitioner fair and impartial review of relevant provisions of law presented that
protect his person and property, as well as properly restrain an ever more aggressive
federal bureaucracy in tax cases.
The lower courts must be reminded again and again by this court of their duty
to review all relevant questions of law, interpret constitutional and statutory
provisions, and determine the meaning or applicability of the terms of an agency
action as required by 5 U.S.C. § 706 in tax cases. Both the USDC and the USCA4
have deprived the Petitioner of this fundamental due process right in this case.
CONCLUSION
This case exposes a clearly willful, intentional abuse of authority by the
IRS for the sole purposes of exacting Petitioner’s property not owed in
violation of the Petitioner’s Fourth and Fifth Amendment rights as provided
by the Constitution of the United States.
The USDC and USCA4 courts neglected their duty as “reviewing
courts” per 5 U.S.C. § 706 to make a decision regarding the relevant questions of
law, interpret constitutional and statutory provisions, and determine the meaning or
applicability of the terms of an agency action.
The lower court’s refusal to restrain the unlawful activities of the IRS and show
even a minuscule amount of concern for the rights of the Petitioner has perpetuated

8

itself into a Constitutional crisis that requires the supervisory intervention of this
court.
Respectfully submitted,

Richard E. Boggs, Pro Se
7001 St. Andrews Rd. #124
Columbia, S.C. 29212
(803) 462-5157
All Rights Reserved

9

